Department of Health and Human Services 

                    OFFICE OF 

               INSPECTOR GENERAL 





    ILLINOIS DID NOT ALWAYS 

   PROPERLY CLAIM MEDICAID 

      REIMBURS EMENT FOR 

         HOSPICE CLAIMS 





   Inquiries about this report may be addressed to the Office of Public Affairs at 

                             Public.Atfairs@oiq.hhs. qov 





                                              Sheri L. Fulcher 

                                         Regional Inspector General 


                                                September 2013 

                                                A·05·12·00029 

                                   Office ofInspector General
                                        https://oig.hhs.gov



The mission ofthe Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its ow n audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS .

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations

The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts ofOI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to tlte Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                                                                                                    



                                            Notices 



                  THIS REPORT IS AVAILABLE TO THE PUBLIC
                            at https://oig.hhs.gov

          Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
          OIG post its publicly available reports on the OIG Web site.

          OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

          The designation of financial or management practices as questionable,
          a recommendation for the disallowance of costs incurred or claimed,
          and any other conclusions and recommendations in this report represent
          the findings and opinions of OAS. Authorized officials of the HHS
          operating divisions will make final determination on these matters.




Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00029)
                                      EXECUTIVE SUMMARY 


 Illinois did not always properly claim Federal Medicaid reimbursementfor hospice claims.


WHY WE DID THIS REVIEW

Hospice care is a program of palliative care that provides for the physical, emotional, and
spiritual care needs of a terminally ill patient and his or her family. The goal of such care is to
achieve the highest quality of life as defined by the patient and his or her family through the
relief of suffering and control of symptoms. Previous Office of Inspector General reviews found
that States did not always comply with Federal and State requirements for hospice claims.

The objective of this review was to determine whether Illinois properly claimed Federal
Medicaid reimbursement for hospice claims submitted by hospices in Illinois.

BACKGROUND

A hospice is a public agency, private organization, or a subdivision of either that is primarily
engaged in providing care to terminally ill individuals. Hospice care can be provided to
individuals in a home, hospital, nursing home, or hospice facility.

In Illinois, the Department ofHealthcare and Family Services (the State agency) administers its
Medicaid program in accordance with the Centers for Medicare & Medicaid Services (CMS)
approved State plan. The State plan establishes what services the Medicaid program will cover
including hospice care. To be eligible to elect hospice care under the Medicaid program, an
individual must be certified by a physician as terminally ill. An individual is considered to be
terminally ill ifthe individual has a medical prognosis that his or her life expectancy is six
months or less. If an individual elects to receive hospice care, he or she must file an election
statement with a particular hospice.

For hospice services to be covered under Medicaid, services must be provided in accordance
with the State Medicaid Manual (the Manual) issued by CMS. The Manual specifies the
requirements for: proper pricing procedures, physician certification, the use of licensed and
qualified workers, provider reimbursement at the proper amount and level of care, and election
statement content.

HOW WE CONDUCTED THIS REVIEW

We limited our review to Medicaid hospice claims of $100 or more paid to Illinois hospices
during the 2-year period January 1, 2009, through December 31, 2010. From a total of 56,044
hospice claims totaling approximately $143 million ($88 million Federal share), we reviewed a
random sample of 120 hospice claims totaling $258,803 ($159,112 Federal share) from 42
Illinois hospices. A claim represented the Medicaid costs for room and board, or hospice care
services, or both, paid for one beneficiary during the month.




Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A -05-12-00029)
                                                                                                          


WHAT WE FOUND

The State agency did not always properly claim Federal Medicaid reimbursement for hospice
claims. Of the 120 sampled claims, the State agency properly claimed Federal Medicaid
reimbursement for 97 claims. The State agency did not properly claim Federal Medicaid
reimbursement for the 23 remaining claims (1 claim contained 2 errors). However, the
unallowable dollar amounts related to these 23 claims are immaterial.

For the 23 improper claims, the:

    		 State agency did not ensure patient credits applied to claims were correct or adjusted
        when necessary (11 claims),

    		 State agency did not ensure claims were priced correctly or adjusted when necessary (10
        claims),

    		 hospice did not meet physician certification requirements (1 claim),

    		 hospice allowed a potentially unqualified worker to perform hospice services (1 claim),
        and

    		 hospice claimed the incorrect amount and level of service (1 claim).

In addition, hospices did not always meet election statement requirements. Of the 120 claims
reviewed, hospices met the election statement requirements for 68 claims. Hospices did not meet
the election statement requirements for the remaining 52 claims. For these claims, the:

    		 hospices did not ensure election statements contained required language (50 claims), and

    		 hospices did not retain the election statements (2 claims).

The improper claims and election statement deficiencies occurred because the State agency did
not always ensure that claims were processed correctly and adjusted when necessary, and did not
adequately monitor hospices for compliance with Federal and State requirements. In addition,
the State agency did not have a uniform election statement for use state-wide by all hospices.

WHAT WE RECOMMEND

We recommend that the State agency:

    		 ensure that hospice claims are processed correctly, and adjusted when necessary, to meet
        Medicaid reimbursement requirements;

    		 monitor hospices to ensure that Federal and State requirements are met with regard to
        physician certification, the use of qualified workers, and election statement content and
        retention; and


Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00029)    ii
                                                                                                          



    		 consider establishing a uniform election statement to be used state-wide by all hospices to
        ensure that all required language is included in the statement.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our findings and described
actions that it has taken to address our recommendations.




Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00029)   iii
                                                                                                                                                         


                                                     TABLE OF CONTENTS



INTRODUCTION ........................................................................................................................ 1 


           Why We Did This Review ................................................................................................1 


           Objective ........................................................................................................................... 1 


           Background ....................................................................................................................... 1


                 The Medicaid Program: How It Is Administrated and 

                          What Hospice Services It Covers .............................................................1 

                 Hospices Provide Care to Terminally Ill Patients and Patient Eligibility .............1 

                 How Hospice Care Services Are Reimbursed Under the Medicaid Program ......2 


           How We Conducted This Review.....................................................................................2 


FINDINGS.................................................................................................................................... 3



           State Agency Did Not Ensure Patient Credits Applied to Claims Were Correct or 

                  Adjusted When Necessary ....................................................................................4                             


           State Agency Did Not Ensure Claims Were Priced Correctly or Adjusted When 

                  Necessary ..............................................................................................................4                 


           Hospice Did Not Meet Physician Certification Requirements .........................................4 


           Hospice Allowed a Potentially Unqualified Worker to Perform Hospice Services .........5 


           Hospice Claimed Incorrect Amount and Level of Service ...............................................5 


           Hospices Did Not Ensure Election Statements Contained Required Language ...............5 


           Hospices Did Not Retain Election Statements..................................................................6 


RECOMMENDATIONS ..............................................................................................................6 


STATE AGENCY COMMENTS.................................................................................................7 


APPENDIXES 


           A: Audit Scope and Methodology ...................................................................................8 



Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00029)                                                   iv
                                                                                                                                     



        B: Federal and State Requirements for Hospice Care ..................................................... 9 


        C: State Agency Comments ........................................................................................... 11 





Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00029)                                v
                                                                                                                


                                                               INTRODUCTION 


WHY WE DID THIS REVIEW

Hospice care is a program of palliative care that provides for the physical, emotional, and
spiritual care needs of a terminally ill patient and his or her family. The goal of such care is to
achieve the highest quality of life as defined by the patient and his or her family through the
relief of suffering and control of symptoms. Previous Office of Inspector General reviews found
that States did not always comply with Federal and State requirements for hospice claims.1

OBJECTIVE

Our objective was to determine whether Illinois properly claimed Federal Medicaid
reimbursement for hospice claims submitted by hospices in Illinois.

BACKGROUND

The Medicaid Program: How It Is Administered and What Hospice Services It Covers

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the Medicaid program. In Illinois, the Department of Healthcare and Family
Services (the State agency) administers its Medicaid program in accordance with the CMS-
approved State plan. The State plan establishes what services the Medicaid program will cover
including hospice care when it is provided by a licensed hospice.

Hospices Provide Care to Terminally Ill Patients and Patient Eligibility

A hospice is a public agency, private organization, or a subdivision of either that is primarily
engaged in providing care to terminally ill individuals. Hospice care can be provided to
individuals in a home, hospital, nursing home, or hospice facility.

A Medicaid participating hospice meets the Medicare conditions of participation for hospices
and has a valid provider agreement. To be eligible to elect hospice care under the Medicaid
program, an individual must be certified by a physician as terminally ill. An individual is
considered to be terminally ill if the individual has a medical prognosis that his or her life
expectancy is six months or less if the illness runs its normal course. If an individual elects to
receive hospice care, he or she must file an election statement with a particular hospice.

                                                            
1
  U.S Department of Health and Human Services, Office of Inspector General, report number A-01-10-00004
entitled Review of Medicaid Hospice Payments Made by Massachusetts for State Fiscal Years 2007 and 2008,
issued February 18, 2011; A-01-10-00012 entitled Review of Medicaid Hospice Payments to Evercare Hospice &
Palliative Care for State Fiscal Years 2007 Through 2009, issued September 23, 2011; A-01-11-00005 entitled
Rhode Island Did Not Always Comply With State Requirements on Medicaid Payments for Hospice Services, issued
March 26, 2012; and A-01-12-00002 entitled Rhode Island Hospice General Inpatient Claims and Payments Did
Not Always Meet Federal and State Requirements, issued August 13, 2012.


Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00029)           1
                                                                                                                    


How Hospice Care Services Are Reimbursed Under the Medicaid Program

A hospice is reimbursed for each day that an individual is under its care based on the type and
intensity of the services, or level of care furnished to the individual for that day. The different
levels of care include, but are not limited to, continuous home care and routine home care.

For continuous home care, the amount of payment is determined based on the number of hours
of continuous care furnished to the individual for that day. A minimum of 8 hours per day must
be provided. Routine home care is paid without regard to the volume and intensity of services
provided on any given day. A hospice is paid at the routine home care rate for each day that an
individual is under its care and does not qualify at another rate.

When hospice care is furnished to an individual residing in a nursing facility, the hospice is paid
an additional amount to take into account the expense of the room and board furnished by the
facility. The amount that the hospice is paid is equal to ninety-five percent (95%) of the State
agency’s calculated per diem rate for basic care at that nursing facility, minus any applicable
patient income. States are required to reduce payments to a hospice for services provided to
certain Medicaid-eligible individuals by amounts deducted from an individual’s income to pay
for medical expenses.2 In Illinois, this amount is referred to as the patient credit.

For hospice services to be covered under Medicaid, services must be provided in accordance
with the State Medicaid Manual (the Manual) issued by CMS. The Manual specifies the
requirements for: proper pricing procedures, physician certification, the use of licensed and
qualified workers, provider reimbursement at the proper amount and level of care, and election
statement content.

HOW WE CONDUCTED THIS REVIEW

We limited our review to Medicaid hospice claims of $100 or more paid to Illinois hospices
during the 2-year period January 1, 2009, through December 31, 2010. From a total of 56,044
hospice claims totaling approximately $143 million ($88 million Federal share), we reviewed a
random sample of 120 hospice claims totaling $258,803 ($159,112 Federal share) from 42
Illinois hospices. A claim represented the Medicaid costs for room and board, or hospice care
services, or both, paid for one beneficiary during the month.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.



                                                            
2
   The amount deducted from each individual’s income is based on the individual’s total income, a personal needs
allowance, and other considerations specified in regulation 42 CFR § 435.832.
 


Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00029)                   2
                                                                                                                     


Appendix A contains the details of our audit scope and methodology. Appendix B contains
excerpts from the Manual detailing, among other things, the content requirements for the election
statement.

                                                               FINDINGS

The State agency did not always properly claim Federal Medicaid reimbursement for hospice
claims. Of the 120 sampled claims, the State agency properly claimed Federal Medicaid
reimbursement for 97 claims. The State agency did not properly claim Federal Medicaid
reimbursement for the 23 remaining claims.3 However, the unallowable dollar amounts related
to these 23 claims are immaterial.

For the 23 improper claims, the:

       		 State agency did not ensure patient credits applied to claims were correct or adjusted
           when necessary (11 claims),

       		 State agency did not ensure claims were priced correctly or adjusted when necessary (10
           claims),4

       		 hospice did not meet the physician certification requirements (1 claim),

       		 hospice allowed a potentially unqualified worker to perform hospice services (1 claim),
           and

       		 hospice claimed the incorrect amount and level of service (1 claim).

In addition, hospices did not always meet election statement requirements. Of the 120 claims
reviewed, hospices met the election statement requirements for 68 claims. Hospices did not meet
the election statement requirements for the remaining 52 claims. For these claims, the:

       		 hospices did not ensure election statements contained required language (50 claims), and

       		 hospices did not retain the election statements (2 claims).

The improper claims and election statement deficiencies occurred because the State agency did
not always ensure that claims were processed correctly and adjusted when necessary, and did not
adequately monitor hospices for compliance with Federal and State requirements. In addition,
the State agency did not have a uniform election statement for use state-wide by all hospices.


                                                            
3
   One claim contained two errors; the State agency did not ensure the claim was priced correctly and the hospice
allowed a potentially unqualified worker to perform hospice services.
 
4
   The State agency corrected 8 of these 10 errors during the course of our review.
 


Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00029)                    3
                                                                                                       




STATE AGENCY DID NOT ENSURE PATIENT CREDITS APPLIED TO CLAIMS
WERE CORRECT OR ADJUSTED WHEN NECESSARY

For 11 claims, patient credits applied to the room and board portion of the claims were either not
correct, or not adjusted when there was a retroactive change in the patient credit amount. The
State agency provided us with the patient credits for these 11 claims. We limited our review to
determining whether the credits were properly applied. We did not verify whether patient credit
amounts were computed correctly. These errors occurred due to weaknesses in the State
agency’s claims processing system and the State agency’s policies. Specifically, the claims
processing system did not always correctly identify the amount of patient credit that had already
been applied. In addition, the State agency’s policies did not ensure that claims were adjusted
after a retroactive change in the patient credit amount.

STATE AGENCY DID NOT ENSURE CLAIMS WERE PRICED CORRECTLY OR
ADJUSTED WHEN NECESSARY

For 8 claims, the State agency used the wage index initially published for Federal fiscal year
(FFY) 2009 when pricing hospice claims, rather than using the revised wage index for FFY
2009. The wage index was recomputed to comply with provisions of the American
Reinvestment and Recovery Tax Act. The Manual specifies that hospice claims must be priced
using the appropriate wage index, adjusted for urban or rural wage differences.5 Prior to our
review, the State identified these errors and subsequently corrected these errors in June 2012
while we were performing our fieldwork.

For 2 claims, the State agency did not ensure adjustments were made when nursing facility per
diem rates changed retroactively. The State agency sets the nursing facility rates based in part on
data provided by the facility. When the new rates are established, the State agency may set an
earlier effective date. For both of the claims, a retroactive rate was established after the claim
was processed; however, these claims were not adjusted to reflect that change.

HOSPICE DID NOT MEET PHYSICIAN CERTIFICATION REQUIREMENTS

For 1 claim, the initial physician’s certification that the individual was terminally ill was
obtained verbally within the required 2 calendar days of the initiation of hospice care. However,
the physician’s corresponding written certification of the individual’s terminal illness was not
obtained until 12 calendar days after the initiation of hospice care, which is 4 days after the
required certification timeline of 8 calendar days6 when a verbal order is first obtained.




                                                            
5
     State Medicaid Manual §§ 4306.3, 4306.4
6
    State Medicaid Manual § 4305.1, see Appendix B



Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00029)   4
                                                                                                                  


HOSPICE ALLOWED A POTENTIALLY UNQUALIFIED WORKER TO PERFORM
HOSPICE SERVICES

For 1 claim, hospice services were provided by a home health aide (HHA) who was potentially
unqualified. The individual was an employee of a hospice that was subsequently sold. We
attempted to locate the employee’s personnel file to determine the HHA’s qualifications, from
both the former and current hospice as well as with the help of the State agency, but were unable
to do so. We were also unable to locate the individual on the State’s Healthcare Worker Registry
of qualified individuals. All hospice services must be performed by appropriately qualified
hospice personnel.7

HOSPICE CLAIMED INCORRECT AMOUNT AND LEVEL OF SERVICE

For 1 claim, an incorrect amount and level of service was claimed. The hospice claimed 24
hours of continuous home care for what our review determined was 21 hours of service at the
routine home care level.

For each day an individual is under the care of a hospice, payment is based on the type and
intensity of the services furnished to the individual for that day. For continuous home care, the
amount of payment is determined based on the number of hours of continuous care furnished to
the beneficiary on that day. Continuous home care is to be provided only during a period of
crises, in which the patient primarily requires nursing care to achieve palliation or management
of acute medical symptoms. Nursing care must be provided by either a registered nurse or a
licensed practical nurse and one or both of them must provide care for more than half of the
period of care.8

Service documentation for the day showed that care was provided by 4 individuals including 3
licensed practical nurses and 1 certified nursing assistant. The combined hours of care by the
licensed practical nurses was less than half of the 21 hours of care provided. The services,
therefore, do not qualify as continuous home care and should have been claimed instead at the
routine home care level.

HOSPICES DID NOT ENSURE ELECTION STATEMENTS CONTAINED REQUIRED
LANGUAGE

For 50 claims, hospices did not meet the election statement requirements of the Manual,9 as
follows:




                                                            
7
    State Medicaid Manual § 4305.5
8
    State Medicaid Manual § 4305.6
 
9
    Of the 50 claims that did not meet election statement requirements, 11 contained more than one deficiency.



Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00029)                 5
                                                                                                                  


       		 For 50 claims, the hospice election statements did not include a waiver of all rights to
           Medicaid payments for hospice care provided by a hospice other than the hospice
           designated by the individual.10

       		 For 10 claims, the hospice election statements did not include a waiver of all rights to
           Medicaid payments for services related to the treatment of the terminal condition or a
           related condition for which hospice care was elected or services equivalent to hospice
           care.11

       		 For 2 claims, the hospice election statements did not include the individual’s
           acknowledgement that he or she had been given a full understanding of hospice care as
           an alternative to traditional covered Medicaid services.12

Election statement content varied from one hospice to another. The State agency does not have a
uniform election statement used state-wide, which, if adopted, would ensure the required
language is included in the election statements.13

HOSPICES DID NOT RETAIN ELECTION STATEMENTS

For 2 claims, the hospices could not provide an election statement for the beneficiary. If an
individual elects to receive hospice care, he or she must file an election statement with a
particular hospice.14

                                                               RECOMMENDATIONS

We recommend that the State agency:

       		 ensure that hospice claims are processed correctly, and adjusted when necessary, to meet
           Medicaid reimbursement requirements;

       		 monitor hospices to ensure that Federal and State requirements are met with regard to
           physician certification, the use of qualified workers, and election statement content and
           retention; and

       		 consider establishing a uniform election statement to be used state-wide by all hospices to
           ensure that all required language is included in the statement.

                                                            
10
     State Medicaid Manual § 4305.2, see Appendix B


11
     State Medicaid Manual § 4305.2, see Appendix B


12
     State Medicaid Manual § 4305.3, see Appendix B


13
 States with uniform election statements include, but are not limited to, Connecticut, Florida, Mississippi, 

Missouri, and New Jersey. 

14
     State Medicaid Manual § 4305.2, see Appendix B




Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00029)                 6
                                                                                                    


                                  STATE AGENCY COMMENTS



In written comments on our draft report, the State agency agreed with our findings and described
actions that it has taken to address our recommendations. The State agency’s comments are
included in their entirety as Appendix C.




Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00029)   7
                                                                                                               


                                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY 


SCOPE 


We limited our review to Medicaid payments made by the State agency to hospice providers for
hospice care provided to Medicaid beneficiaries as authorized under the State plan for the audit
period. We excluded claims in which the paid amount was less than $100.15
After taking into account the exclusions above, we determined that the State processed and paid
56,044 Medicaid hospice claims totaling $142,972,076 ($87,817,445 Federal share) for hospice
care provided from January 1, 2009, through December 31, 2010. We reviewed a random
sample of 120 claims.
We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we limited our internal control review to the objective of our audit.
We conducted fieldwork at 42 individual hospices around the State of Illinois.
METHODOLOGY

To accomplish our objective, we:

       		 reviewed applicable Federal and State laws, regulations, and guidance;

       		 held discussions with State agency officials to gain an understanding of the State 

           agency’s hospice care program; 


       		 obtained Medicaid paid claims for service dates from January 1, 2009, through December
           31, 2010, from the State agency;

       		 identified a sampling frame of 56,044 hospice claims, totaling $142,972,076 

           ($87,817,445 Federal share); and 


       		 selected a random sample of 120 hospice claims from our sampling frame, and for each
           claim, obtained and reviewed the related hospice documentation to determine whether
           hospice care was provided in accordance with Federal and State requirements.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.


                                                            
15
  A claim represented the Medicaid costs for room and board or hospice care services, or both, paid for one
beneficiary during the month. 



Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00029)              8
                                                                                                          


                 APPENDIX B: FEDERAL AND STATE REQUIREMENTS


                               FOR HOSPICE CARE



PHYSICIAN CERTIFICATION REQUIREMENTS

Pursuant to the Manual Part 4305, in order to be eligible to elect hospice care under Medicaid, an
individual must be certified by a physician as terminally ill. An individual is considered to be
terminally ill if the individual has a medical prognosis that his or her life expectancy is six
months or less.

Pursuant to the Manual section 4305.1, the hospice must obtain the certification that an
individual is terminally ill in accordance with the following procedures:

        For the first period of hospice coverage, the hospice must obtain, no later than two
        calendar days after hospice care is initiated, written certification statements signed by the
        medical director of the hospice or the physician member of the hospice interdisciplinary
        group and the individual’s attending physician (if the individual has an attending
        physician).

        If the hospice does not obtain a written certification within two days after the initiation of
        hospice care, a verbal certification may be obtained within these 2 days, and a written
        certification obtained no later than 8 days after care is initiated. If these requirements are
        not met, no payment can be made for days prior to the certification. The attending
        physician is a physician who is a doctor of medicine or osteopathy and is identified by the
        individual at the time he or she elects to receive hospice care as having the most
        significant role in the determination and delivery of the individual’s medical care.

        For any subsequent period, the hospice must obtain, no later than two calendar days after
        the beginning of that period, a written certification statement prepared by the medical
        director of the hospice or the physician member of the hospice’s interdisciplinary group.
        The certification must include the statement that the individual’s medical prognosis is
        that his or her life expectancy is six months or less if the terminal illness runs its normal
        course and the signature(s) of the physician(s). The hospice must retain the certification
        statements.

ELECTION STATEMENT CONTENT REQUIREMENTS

Pursuant to section 4305.4 of the Manual, to be covered, a certification that the individual is
terminally ill must have been completed as set forth in § 4305.1 and hospice services must be
reasonable and necessary for the palliation or management of the terminal illness and related
conditions. The individual must elect hospice care in accordance with § 4305.2….

Pursuant to section 4305.2 of the Manual, if an individual elects to receive hospice care, he or
she must file an election statement with a particular hospice. An election may also be filed by a
representative acting pursuant to State law. With respect to an individual granted the power of




Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00029)    9
 


attorney for the patient, State law determines the extent to which the individual may act on the
patient’s behalf.

Pursuant to section 4305.3 of the Manual, the election statement must include the following
items of information: identification of the particular hospice that will provide care to the
individual; the individual’s or representative’s acknowledgement that he or she has been given a
full understanding of hospice care; the individual’s or representative’s acknowledgement that he
or she understands that the Medicaid services listed in § 4305.2 are waived by the election; the
effective date of the election; and, the signature of the individual or representative.

The services that must be waived pursuant to section 4305.2 are:

    		 Hospice care provided by a hospice other than the hospice designated by the individual
        (unless provided under arrangements made by the designated hospice); and

    		 Any Medicaid services that are related to the treatment of the terminal condition for
        which hospice care was elected or a related condition or that are equivalent to hospice
        care except for services—

                - Provided (either directly or under arrangement) by the designated hospice;

                - Provided by the individual’s attending physician if that physician is not an
                employee of the designated hospice or receiving compensation from the hospice
                for those services; or

                - Provided as room and board by a nursing facility if the individual is a resident.




Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims (A-05-12-00029)      10
                               APPENDIX C: STATE AGENCY COMMENTS 




                      IlliNOIS IM'AU .. tNI ••



    fHFS              llcal!hcorl' and
                      f;amiiy t'n. ire:.
                                                                                              Pat Quinn, Governor
                                                                                              Julie Hamos, Director


     201 South Grand Avenue East                                                              Telephone: (217) 782-1200
     Springfield, Illinois 62763-0002                                                         llnf:(800)526-5812



                                                              AUb'liSI 30. 2013




       Department of Health and Human SCIVices 

       Office ofAudit s~:rviw.. Region V 

       Attn: Sheri L. Fulcher. Regional Inspector G.."'ttl.Tal for Audit Services 

       233 North Michigan Avc..-nuc. Suite 1360 

       Chicago,lllinois 60601 


       Rc: Draft AOOit Report A-05-12-00029

       Dear Ms. Fulcher.

       Thank you for providing the opportunity to comment on your dmtl audit report t.-ntitled "1/lhrois Did Nor
       Always Propcr{v Claim Medical Reimbursementfor Hospice Claims".

       llte Dt:partment oonc.."UJS with the n:commc..·ndation. The Department has corrected the claims noted during the
       oomse of the audit and has IUJUested a revision to its systc..m to considc..T alternate and exceptional c.ruc rates for
       hospice pricing. A new Integrated Eligibility Sy.;tc..m will allow eligibility change; to he made automatically.
       implementation is anticipated in 2016. lltc Department has also revised oar HoSJlice election fonn to include
       appropriate langu:1f:,'C. HFS is dewloping a Hospice Handbook which will state ho..•;piccs must ensure employment
       files contain appropriate cnxfentials. act1ve employees be listed on the DL-partmc..'llt of Public Health's Health Care
       Worka Registry and employee files must be n.'laincd Hospice inspa.'tibns rutd inVQ.1igations are pc..'lfomted by the
       Department of Public Health, as established by Administmtivc Rule, to c..'llSUl'C compliance with the Hospice
       Progrnm Ucensing Ac..1.

       We appreciate the work completed by your audit team. Tf you have any questions or comments about our
       response to the audit. please contact Amy Lyon.<~, External Audit Liaison, at (217) 557-0576 or thmu/:11 email at
       am .l y ns@illinoj .gllV,

       Sincerely.

         ~~
       Jui,Hamos 

       Director 





     E-mail: hfs. webmaster@illinois.gov                                                     Internet: http://www.hfs illinois.gov/




Illinois Did Not Always Properly Claim Medicaid Reimbursement fo r Hospice Claims (A -05-1 2-00029)                                   ll
